   Department of Health and Human Services
                      OFFICE OF 

                 INSPECTOR GENERAL 





  REVIEW OF SELECT EXPENDITURES 

     CLAIMED BY THE RESEARCH 

FOUNDATION OF THE STATE UNIVERSITY 

 OF NEW YORK, STATE UNIVERSITY OF 

     NEW YORK AT STONY BROOK 



     Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                              Public.Affairs@oig.hhs.gov. 





                                                       James P. Edert 

                                                  Regional Inspector General 


                                                          August 2012 

                                                         A-02-n-02008 

                        Office ofInspector General
                                          http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs andlor its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, andlor civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program gnidance, publishes fraud alerts, and provides
other gnidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oiq.hhs.qov

 Section 8L ofthe Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND 


The State University of New York (SUNY) is the nation's largest state university system.
SUNY has 64 educational institutions located throughout New York State, including the
University at Stony Brook (the University).

The Research Foundation of SUNY (the Foundation), headquartered in Albany, New York, helps
SUNY acquire, administer, and manage external funds to advance research and education, and
transfer technology from SUNY campuses to the marketplace. During the period July 1, 2008,
through June 30, 2010, the Foundation claimed reimbursement for $140,683,213 of expenditures
incurred on 432 sponsored agreements with U.S. Department of Health and Human Services
operating divisions, including the National Institutes of Health.

Principles for determining the allowability of expenditures charged to sponsored agreements
with the Foundation and other educational institutions are set forth in 2 CFR pt. 220, Cost
Principles for Educational Institutions (formerly Office of Management and Budget Circular
A-21), incorporated by reference at 45 CFR § 74.27(a). These cost principles apply both to
direct costs-expenses incurred solely for the performance of a particular sponsored
agreement-and to facilities and administrative (F&A) costs-indirect expenses incurred for
common or joint objectives of the institution and cannot be readily and specifically identified
with a particular sponsored agreement.

OBJECTIVE

Our objective was to determine whether the Foundation claimed Federal reimbursement for
clerical, administrative, and extra service compensation expenditures as direct costs in
accordance with Federal regulations.

SUMMARY OF FINDINGS

The Foundation generally claimed Federal reimbursement for clerical, administrative, and extra
service compensation expenditures in accordance with Federal regulations. However, of the 121
administrative expenditures that we reviewed, 8 expenditures totaling $2,425 did not comply
with Federal regulations. In addition, extra service compensation paid to one faculty member,
totaling $15,829, did not comply with Federal regulations. These unallowable expenditures
occurred because the Foundation had not established adequate controls to ensure consistent
compliance with the cost principles applicable to charges for administrative and extra service
compensation expenditures.
RECOMMENDATIONS

We recommend that the Foundation:

   • 	 refund $18,254 to the Federal Govermnent and

   • 	 establish adequate controls to ensure consistent compliance with the costs principles
       applicable to charging administrative and extra service compensation expenditures to
       sponsored agreements.

FOUNDATION COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Foundation disagreed with our first recommendation
(financial disallowance), concurred with our second recommendation, and described actions it
has taken or planned to take to ensure compliance with Federal cost principles. Under separate
cover, the Foundation provided additional documentation to support the allowability of costs
questioned in our draft report. Based on our review of the additional documentation, we
accepted some of the costs questioned in our draft report and revised our findings and related
recommendation accordingly. The Foundation's comments appear as Appendix B.




                                               11
                                                  TABLE OF CONTENTS 




INTRODUCTION.................................................................................................................... 1 


         BACKGROUND ............................................................................................................. 1 

             The State University of New york ............................................................ .. ........ 1 

             The Research Foundation of the State University of New York ............... .. ........ l 

             The American Recovery and Reinvestment Act of2009 .................................... 1 

             Cost Principles for Educational Institutions ................................. .... ................... 1 


         OBJECTIVE, SCOPE, AND METHODOLOGY ........................ .. ...................... .. ........2 

              Objective ............................................................................................................. 2 

              Scope ...................................................................................................................2 

              Methodology ........................................................ ... ..................... ... ....................2 


FINDINGS AND RECOMMENDATIONS ...... .......... .. ...................... .. ...................... .. ....... .4 


         CLERICAL EXPENDITURES ........................................ ... ..................... ... ................... .4 


         ADMINISTRATIVE EXPENDITURES ....................................................................... .4 


         EXTRA SERVICE COMPENSATION ......................................................................... .4 


         RECOMMENDATIONS ................................................................................................ 5 


         FOUNDATION COMMENTS ..................................................... .. ...................... .. ........ 5 


         OFFICE OF INSPECTOR GENERAL RESPONSE ....... .... .................... .... ...................6 


APPENDIXES 


         A: 	 DEPARTMENT OF HEALTH AND HUMAN SERVICES EXPENDITURES
               CLAIMED BY THE FOUNDATION FROM JULY 1,2008, THROUGH
               JUNE 30, 2010

          B: FOUNDATION COMMENTS




                                                                     111
                                                INTRODUCTION 


BACKGROUND 


The State University of New York

The State University of New York (SUNY) is the nation's largest state university system.
SUNY has 64 educational institutions located throughout New York State, including the
University at Stony Brook (the University).

The Research Foundation of the State University of New York

The Research Foundation of SUNY (the Foundation), headquartered in Albany, New York, helps
SUNY acquire, administer, and manage external funds to advance research and education, and
transfer technology from SUNY campuses to the marketplace. During the period July I, 2008,
through June 30, 2010, the Foundation claimed reimbursement for $140,683,213 of expenditures
incurred on 432 sponsored agreements with U.S. Department of Health and Human Services
(HHS) operating divisions, including the National Institutes of Health. A summary of these
expenditures, by operating division, are included as Appendix A.

The American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 11l-5 (Recovery Act) was
enacted on February 17, 2009. During the period February 17, 2009, through June 30, 2010, the
Foundation received $104,416,333 in total Recovery Act funding from HHS and other Federal
agencies. Of this amount, the University received $33,169,199 of Recovery Act funds awarded
byHHS.

Cost Principles for Educational Institutions

Principles for determining the allowability of expenditures charged to sponsored agreements
with the Foundation and other educational institutions are set forth in 2 CFR pt. 220, Cost
Principles for Educational Institutions (formerly Office of Management and Budget Circular
A-21), incorporated by reference at 45 CFR § 74.27(a). These cost principles apply both to
direct costs-expenses incurred solely for the performance of a particular sponsored
agreement-and to facilities and administrative (F&A) costs-indirect expenses incurred for
common or joint objectives of the institution and cannot be readily and specifically identified
with a particular sponsored agreements. 1




1 Educational institutions are reimbursed for F&A costs through rates negotiated with the Federal Government.
Institutions with significant numbers of federally funded agreements frequently have multiple F &A rates applicable
to different functions, such as research, training, or other institutional activities. The F &A rates are made up of two
components-facilities and administrative.




                                                            1

In accordance with 2 CFR pt. 220, App. A § C.4.d.l, each college and university is responsible
for ensuring that direct and F &A costs charged to federally sponsored agreements are allowable
under these cost principles.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether the Foundation claimed Federal reimbursement for
clerical, administrative, and extra service compensation expenditures as direct costs in
accordance with Federal regulations.

Scope

Our audit covered clerical, administrative, and extra service compensation expenditures claimed
for reimbursement from July 1, 2008, through June 30, 2010. 2 The audit was limited to
sponsored agreements between the Foundation and the following HHS component agencies:
National Institutes of Health, Centers for Disease Control and Prevention, Administration for
Children and Families, Health Resources and Services Administration, Substance Abuse and
Mental Health Services Administration, and Food and Drug Administration. We did not
evaluate expenditures related to the Foundation's agreements with other Federal agencies.

We did not perform an overall assessment of the Foundation's internal control structure.
Rather, we reviewed only the internal controls designed and implemented to identify,
account for, and support clerical, administrative, and extra service compensation costs
claimed for Federal reimbursement.

We conducted our field work at the Foundation's offices located on the University's campus in
Stony Brook, New York, between November 2011 and December 2011.

Methodology

To accomplish our audit objective, we:

    • 	 held discussions with Foundation officials to obtain an understanding of the University'S
        procedures for claiming administrative, clerical and extra service compensation
        expenditures to sponsored agreements;

    • 	 reviewed how the Foundation identified, accounted for, and supported claims for
        reimbursement of administrative, clerical, and extra service compensation expenditures;




2Clerical expenditures are salary costs for administrative and clerical staff (e.g., secretaries and administrative
assistants). Administrative expenditures are costs for items other than personal services (e.g., office and lab
supplies). Extra service compensation expenditures are salary costs earned above the individual's institutional base
salary.


                                                          2

    • 	 reviewed the Foundation's approved Cost Accounting Standards Board Disclosure
        Statement (DS-2); 3

    • 	 obtained a database of 89,747 expenditures, totaling $140,683,213 that the Foundation
        charged to 432 HHS-sponsored agreements during the period July 1, 2008, through
        June 30, 2010;

    • 	 identified a sampling frame of 3,528 clerical expenditures totaling $3,021,307, and
        11,420 administrative expenditures totaling $2,436,179;

    • 	 identified and reviewed all 641 extra service compensation expenditures totaling 

        $132,360 related to 19 individuals that earned such compensation; 


    • 	 selected and reviewed a stratified random sample of 116 clerical transactions totaling
        $168,018 from the sampling frame of3,528 clerical expenditures and 121 administrative
        transactions totaling $182,654 from the sampling frame of 11,420 administrative
                ·
        expen dltures; 4


    • 	 identified sponsored agreements that met the definition of "major project;"S

    • 	 interviewed University clerical staff to gain an understanding of their services provided
        directly to sponsored agreements; and

    • 	 computed the F&A costs related to the unallowable expenditures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




3Educational institutions that receive aggregate sponsored agreements totaling $25 million or more are required to
disclose their cost accounting practices by filing a DS-2. The University's DS-2 was submitted to the HHS Division
of Cost Allocation (DCA).

4 The sample design for both clerical and administrative expenditures was a stratified random sample containing two
strata. The first stratum for the clerical expenditures contained transactions greater than or equal to $10 and less
than or equal to $3,600. The second stratum contained all expenditures greater than $3,600. The first stratum for
the administrative expenditures contained transactions greater than or equal to $10 and less than $5,000. The second
stratum contained all expenditures greater than or equal to $5,000.

5Federal regulations define "major project" as a sponsored agreement that requires an extensive amount of
administrative or clerical support, which is significantly greater than the routine level of such services provided by
academic departments. (2 CFR pI. 220, App. A § F.6.b.2).


                                                           3

                                  FINDINGS AND RECOMMENDATIONS 


The Foundation generally claimed Federal reimbursement for clerical, administrative, and extra
service compensation expenditures in accordance with Federal regulations. However, of the 121
administrative expenditures that we reviewed, 8 expenditures totaling $2,425 did not comply
with Federal regulations. In addition, extra service compensation paid to one faculty member,
totaling $15,829, did not comply with Federal regulations . These unallowable expenditures
occurred because the Foundation had not established adequate controls to ensure consistent
compliance with the cost principles applicable to charges for administrative and extra service
compensation expenditures.

CLERICAL EXPENDITURES

Pursuant to 2 CFR pt. 220, App. A § F.6.b.(2), the salaries of administrative and clerical staff
should normally be treated as F&A costs. Direct charging of these costs would be appropriate
when the costs of such activities are incurred in unlike circumstances, or if the project is
considered a "major project." We determined that all 116 clerical expenditures in our sample
were adequately supported to show that the (1) involved sponsored agreements qualified as
"major projects" or were able to support unlike circumstances and (2) clerical support being
charged directly was beyond the level of support normally required by an academic department.

ADMINISTRATIVE EXPENDITURES

Pursuant to 2 CFR pt. 220, App. A § F.6.b.(3), items such as office supplies, postage, local
telephone costs, and memberships shall normally be treated as F&A costs. F&A costs are
categorized as indirect expenses when incurred for common or joint objectives of the institution
and cannot be readily and specifically identified with a particular sponsored agreement. Direct
charging of these costs would be appropriate when the costs of such activities are incurred in
unlike circumstances, or if the project is considered a "major project."

The Foundation improperly claimed $1,631 as direct administrative expenditures (e.g., laptop,
flash drives, batteries, laser printer, printer cartridge, paper, and binder clips). Pursuant to
Federal regulations, these supplies should have been treated as F&A expenditures. The
Foundation could not show that these expenditures were incurred in unlike circumstances or the
related project was considered a "major project." The Foundation also improperly claimed $794
for F &A costs applicable to these expenditures. Therefore, the total unallowable amount
claimed was $2,425. 6

EXTRA SERVICE COMPENSATION

Pursuant to 2 CFR pt. 220, App. A § J.I0.d, grantees shall not charge sponsored agreements in
excess of a faculty member's base salary. In addition, the cost principles state that intra­
university consulting is a university obligation that generally requires no compensation in
addition to full-time base salary. The cost principles further state, "In unusual cases where
consultation is across departmental lines [emphasis added] or involves a separate or remote

6   The figures presented in this finding are based on actual unallowable expenditures, not a projection.


                                                             4

operation, and the work perfonned by the consultant is in addition to his regular departmental
load, any charges for such work representing extra compensation above the base salary are
allowable provided that such consulting arrangements are specifically provided for in the
agreement or approved in writing by the sponsoring agency."

The Foundation improperly claimed $10,659 for extra service compensation paid to one faculty
member because the individual earned such compensation in the same department that he
perfonned his regular duties. The Foundation also claimed $3,997 for fringe benefits and $1,173
for F &A costs applicable to the total extra service compensation recommended for adjustment. 7
Therefore, the total unallowable amount claimed was $15,829.

RECOMMENDATIONS

We recommend that the Foundation:

    • 	 refund $18,254 to the Federal Government and

    • 	 establish adequate controls to ensure consistent compliance with the costs principles
        applicable to charging administrative and extra service compensation expenditures to
        sponsored agreements.

FOUNDATION COMMENTS

In written comments on our draft report, the Foundation disagreed with our first recommendation
(financial disallowance), concurred with our second recommendation, and described actions it
has taken or planned to take to ensure compliance with Federal costs principles. Under separate
cover, the Foundation provided additional documentation to support the allowability of costs
questioned in our draft report. The Foundation's comments appear as Appendix B.

The Foundation stated that the administrative expenditures questioned in our report were for
exclusive use on the funded project and that the University's standard procurement procedure
includes an attestation from the Principal Investigator that "items are for project specific use if
they are to be directly charged." Regarding the extra service compensation paid to one faculty
member, the Foundation stated that the faculty member's 'job title" did not allow for any release
time to conduct research and that his role on the sponsored award was in addition to and outside
of his official job responsibilities.




7 Total fringe benefit costs were calculated using the fringe benefit rate (37.5 percent) negotiated between the
Foundation and DCA. The Foundation subjectively used an F&A rate that was equal to or lower than the DCA
negotiated rate (56 percent) on HHS awards. In calculating the unallowable amount, we applied the fringe benefit
rate to extra service compensation, and the appropriate F &A rate to administrative costs and extra service
compensation, and related fringe benefits.


                                                        5

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on our review of the additional documentation provided by the Foundation, we accepted
some of the costs questioned in our draft report and revised our findings and related
recommendation accordingly.

We maintain that the Foundation improperly claimed administrative expenditures totaling
$2,425. Federal regulations state that colleges and universities are required to consistently
allocate costs incurred for the same purpose. According to the cost principles, administrative
expenditures should always be considered indirect costs unless incurred in unlike circumstances
or related to a "major project." The Foundation was unable to demonstrate that the
administrative expenditures related to our finding were not consistent with similar type
expenditures incurred in unlike circumstances or related to a "major project." Regarding the
extra service compensation paid to one faculty member, we maintain that the expenditure was
unallowable because the faculty member earned it while working for the same department for
which he performed his regularly appointed duties.




                                               6

APPENDIXES 

        APPENDIX A: DEPARTMENT OF HEALTH AND HUMAN SERVICES 

              EXPENDITURES CLAIMED BY THE FOUNDATION 

                 FROM JULY 1,2008, THROUGH JUNE 30, 2010 




                                                            No. of Sponsored   Expenditure
                     Operating Division                       Agreements         Amount
National Institutes of Health                                            403   $132,612,222
Health Resources and Services Administration                              21      5,104,672
Centers for Disease Control and Prevention                                 3      1,932,649
Administration for Children and Families                                   3        974,859
Substance Abuse and Mental Health Services Administration                  1         58,450
Food and Drug Administration                                               1            361
 Total                                                                   432   $140,683,213
                                                                                                                           Page 1 of3


                           APPENDIX B: FOUNDATION COMMENTS 





      ~~~€F)

       Foundation for
      The State University of New York


Executiw Vice Presidmt
                           June 29, 2012

         35 Stat. Stn>et   Mr, James p, Edert
      Albany, New Yorl<    Regional Inspector General for Audit Services
                           Region II
       M8ilingAddress:     Jacob Javits Federal Building
      Post Office Box 9    26 Federal Plaza, Room 3900
      Albany, NewYorl<
            12201.mtJ9
                           New York, New York 10278
         518-434-7061
    Fax: 518-434-8351
                           Re: Report Number A-02-11-02008

        www.tfsuny.org     Dear Mr. Edert:

                           The purpose of this letter is to respond to the recommendations contained in your report
                           number A-02-11-0208 dated June 15, 2012,

                           DHHS Recommendation #1:
                           DHHS recommends that the Foundation refund $33,315 to the Federal Government. 


                           Research Foundation (RF) Response: 

                           The RF does not concur with this recommendation, 


                           The following table identifies the questioned costs that were identified in the draft audit 

                           report by type, 


                                         Type                 Amount of       Amount         Total         Amount of
                                                                Direct        ofF&A          Costs        Expenditures
                                                                Cost                                      RF Disagrees
                            Administrative expenditures          1,631             794         2,425          2,425
                            Extra service compensation          25,508           5,382        30,890         30,890
                                        Total                  $27,139          $6,176       $33,315        $33,315

                           We have provided additional documentation to DHHS supporting the RF position on the
                           following questioned costs:

                           1) Administrative Expenditures - $2,425
                            • 	 DHHS Position: Direct costs for administrative expenditures should have been 

                                treated as F&A expenditures, 

                                                                                             Page 2 of3




 • 	 RF Position: OMB Circular A-21 secticm J.31.c indicates thaI 'Only materials and
    supplies actually used for the performance of a sponsored agreement may be charged as
    direct costs." The Stony Brook University standard procurement procedures, and
    specifically the purchase requisition, includes i:M"I attestation by the PI that items are for
    project scientifIC use if they are to be directly charged. For each of the 7 items in
    Question, the purchases were for exclusiY'e use on the project. In addition, there are
    campus procedures in place thaI provide for close scrunily of the type of expenditure thai
    has the potential to be office supplies. For purposes of this audit, the campus obtained
    specific additional confirmation from 6 of the 7 Pis involved who confirmed that the items
    were used exclusively for the project.

2) Expenditures for consulting by University employees - $30,890
 • 	 OHHS Position: Grantees shall not charge sponsored agreements in excess of a faculty
     member's base sala", except in unusual cases.

• 	 RF Position: For 3of the 4 individuals that had extra service compensation charged to
    sponsored awards, these individuals are not faculty employees but rather are in
    professional non-faculty position titles. OMS Circular A·21 section J.l0 indicates that
    'Compensation for personal services C()vers all amoonts paid currently or accrued by the
    institution for services of employees rendered during the period of performance under
    sponsored agreements. Such amounts include salaries, wages, and fringe benefits.
    These C()sts are allowable to the extent that the total compensation 10 individual
    employees conforms to the established policies of the institution, consisterltly applied, and
    provided that the marges for the work performed directly on sponsored agreements and
    for other work allocable as F&A C()sts are detennined and supported as provided below.
    Charges to sponsored agreements may indude reasonable arOOlmts for activities
    contributing and intimately related to work uooer the agreements, such as delivering
    special lectures about specifIC aspects of the ongoing activity, writing reports and articles,
    and participating in appropriate seminars, consulting with C()lleagues and graduate
    students, and attending meetings and conferences. •

    The Stony Srook University procedure for payment of extra service compensation for non·
    facuHy employees includes the above critelia and is consistently applied to include pre­
    approval and to document the need and added value to the project.

    For the 1individual that is a faculty member, OMS Circular A-21 Section J.l0.d (1 )
    indicates that •... in unusual cases where consultation is across departmenllines or
    involves a separate or remole operation, and the w()l'\( performed by the consultant is in
    addition to his regular departmental load, any charges for such work representing extra
    C()mpensation above the base salary are allowable provided that such consulting
    arrangements are specificaly provided for in the agreement or approved in 'Nriting by the
    sponsoling agency.' In the case of this faculty meiTtJer, his job title does not allow for
    any release time to conduct research as is typical for most faculty appointments. His role
    on the sponsored award is in addition to and outside of his official job responsibilities.
    The responsibilities of his extra service appointment require him to interact with 11
    different academic departments to create mentoring relationships for underrepresented
    minority students within these scientific departments.


                                                                                    Page 2
                                                                                             Page 3 of3




OHHS Recommendation 112
DHHS recommends thai the Foundation establish adequate controls to ensure consistent
compliance with the cost principles applicable to charging administrative and extra seNice
compensation expenditures to sponsored agreements.

RF Response: 

The RF oonCUfS with this rerommendaoon and has planned or has laken the following 

corrective actions: 


1) 	The Research Foundation Central Office completed an Enterplise Risk Assessment to
    provide an integrated, continuous, and broad approach for assessing risk data ocross
    multiple areas of the enterprtse and provides management with the information needed to
    address risks. Management provides quarterly "Risk Assessment and Corrective Action
    Plan" reports thai identify risks and how they will be managed. Risks are reported in five
    general risk categories - entity level, operational, sponsored program, financial, and
    informatioo technology. Information about this program is on the RF public: web sije:
    WYIW.rfsuny.oro

2) The Research Foundation Office of Internal AlJdit conducted an alJdit of extra service
   compensation payments.

3) The Research FOlJnction's poticy and procedlJles on extra service compensation are
   being reviewed and u~aled and witl be revised to inctude additionat tanguage on
   atlowability of these types of charges.

We thank the audit staff of the OHHS Albany offICe for the courtesy they extended throughout
this audit.




copy: 	 Dr. Benjamin Hsiao
        Vice President for Research & RF Operations Manager, Stony Brook UniYefSity

        Nancy Daneau
        Associate Vice President for Research & RF Deputy Operations Manager,
        Stony Brook University

        Dr. TImothy l. Killeen 

        President, The Research Foundation for SUNY 


        Emily Kunchala
        Vice President, Internal Audit, The Research Foundation for SUNY
                                                                                    Page 3
